fT

mm  CQCKLE

+ E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B riefs contact@cockielegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850

No. 20-1735

ANGEL MANUEL ORTIZ-DIAZ, ET AL.,
Petitioners,
v.
UNITED STATES OF AMERICA, ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supremé Court Rule 33.1(h), I certify that the BRIEF OF THE
COMMONWEALTH OF PUERTO RICO AS AMICUS CURIAE IN SUPPORT OF
PETITIONERS in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point
for the footmotes, and this brief contains 4158 words, excluding the parts that are exempted by
Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 12th day of July, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Webraska
A RENEE J. GOSS: Konto. 9 teas’
My Comm. Exp. September 5, 2023 .

Notary Public

Ondiw-h, Chl

Affiant
